<html>
<title> - PROGRESS AND FUTURE OF OPERATION DAKOTA PEACEKEEPER</title>
<body><pre>[Senate Hearing 110-692]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-692
 
          PROGRESS AND FUTURE OF OPERATION DAKOTA PEACEKEEPER

=======================================================================


                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 4, 2008

                               __________

         Printed for the use of the Committee on Indian Affairs



                   U.S. GOVERNMENT PRINTING OFFICE
45-992 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            TOM COBURN, M.D., Oklahoma
DANIEL K. AKAKA, Hawaii              JOHN BARRASSO, Wyoming
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARIA CANTWELL, Washington           GORDON H. SMITH, Oregon
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
JON TESTER, Montana
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 4, 2008...................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Thune.......................................     3

                               Witnesses

Gipp, David M., President, United Tribes Technical College.......    34
    Prepared statement with attachment...........................    36
His Horse Is Thunder, Hon. Ron, Chairman, Standing Rock Sioux 
  Tribe..........................................................     5
    Prepared statement...........................................     8
Jackley, Hon. Marty J., U.S. Attorney, District of South Dakota..    15
    Prepared statement...........................................    19
Ragsdale, W. Patrick, Director, Office of Justice Services, U.S. 
  Department of the Interior.....................................    11
    Prepared statement...........................................    15
Zuger, Hon. William, Chief Judge, Standing Rock Sioux Tribal 
  Court..........................................................    21
    Prepared statement...........................................    24


          PROGRESS AND FUTURE OF OPERATION DAKOTA PEACEKEEPER

                              ----------                              


                         MONDAY, AUGUST 4, 2008


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Fort Yates, ND.
    The Committee met, pursuant to notice, at 9:30 p.m. at 
Sitting Bull College, Fort Yates, North Dakota, Hon. Byron L. 
Dorgan, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Welcome to the hearing this morning. I am 
Senator Byron Dorgan. We may be joined by Senator Thune. He was 
scheduled to be here, but obviously there may have been some 
weather intervention. My hope is that he will be joining us.
    This is a hearing of the Indian Affairs Committee of the 
United States Senate. I am joined by Rhonda Harjo, one of the 
counsels on our Committee. Rhonda is right back here. And Pam 
Dunnison, who is on my staff.
    We are here today to talk about law enforcement on the 
Standing Rock Indian Reservation. But the issue of law 
enforcement is a broad issue that deals with the question of 
law enforcement on Indian reservations all across this Country. 
Specifically today, we are here to examine the progress and the 
future of what is called Operation Dakota Peacekeeper on the 
Standing Rock Indian Reservation. The need for this operation 
is really unfortunate in many ways.
    But I think it is a required operation that the BIA 
undertook because frankly, the United States has not been 
meeting its obligation to provide public safety in Indian 
Country. We have a treaty and a legal and statutory obligation 
to provide for public safety in Indian Country. Article 1 of 
the 1868 Treaty of Fort Laramie with the Sioux Indians provides 
that the United States shall arrest and punish those who commit 
crimes on Indian lands.
    Sadly, we have not met our obligation. There are severe 
threats to public safety that exist in much of Indian Country. 
And as we will hear today in this community, the Standing Rock 
Indian Reservation has had to deal with the fear of crime and 
with violent acts for far too long. The Standing Rock 
Reservation has suffered violent crime rates more than five and 
one half times the national average. In 2007, we received at 
the Indian Affairs Committee a report from Amnesty 
International that highlighted the epidemic of domestic and 
sexual violence in Indian Country in general, and on this 
reservation in particular.
    A former BIA police officer on this reservation who was one 
of the few officers assigned here at the time stated that he 
was overwhelmed by the number of calls for assistance relating 
to rape, sexual assault, child abuse and more.
    Senator Thune, Welcome. We are joined by our neighbor to 
the south.
    When it came to the Federal rape prosecutions, for example, 
this former law enforcement officer was quoted as saying, ``we 
all knew they,'' meaning prosecutors, ``only take the ones with 
a confession. We were forced to triage our cases.'' Triaging 
rape cases, of course, is outrageous. In April of this year, a 
young man who was preparing to graduate from Sitting Bull 
College was senselessly murdered. I understand that is under 
investigation. I have visited with the U.S. Attorney's office, 
asking for information about investigations and declinations 
and have gotten a lot of information. I have called on the 
former assistant secretary to provide additional resources to 
address this rash of violence.
    In December of 2007, the Congress did appropriate $23.7 
billion for the Interior Department's Safe Indian Communities 
initiative. In May, I and Senator Thune, Senator Conrad and 
Senator Johnson, and the rest of the North and South Dakota 
delegation, urged the BIA to spend a portion of those funds to 
address violence at Standing Rock. Soon after, the BIA 
initiated Operation Dakota Peacekeeper. Prior to that 
operation, the BIA had assigned nine officers to patrol 2.3 
million acres of land on the reservation.
    This operation adds 20 additional officers, who I 
understand are detailed and then rotated out with 20 new 
officers in their detail. I believe that is 30 days' rotation.
    This Committee held a hearing last month and received some 
early reports from tribal chairmen that the operation was 
working and working well. So we are here today to review that 
progress and discuss the future of the operation here at 
Standing Rock, and discuss what possibility exists to replicate 
an operation like this, if this is seen to have significant 
success. By replication I mean on other Indian reservations, 
because there are many other reservations that face the same 
kind of crime wave that exists.
    Today we will learn, I believe, that Operation Dakota 
Peacekeeper proves that additional resources will provide 
immediate and direct decreases in reservation crime. Funding 
alone, of course, is not the only thing that will address this 
problem. Violent crime in Indian Country also suffers from a 
system, I believe, that is broken. We can't just continue to 
fund a broken system and hope that the system will be fixed.
    For that reason I introduced S. 3320, the Tribal Law and 
Order Act of 2008, along with Senator Thune and my colleague 
Senator Conrad and 11 others of our Senate colleagues. This 
bipartisan bill takes initial steps at trying to provide some 
reform of the entire system. It would arm tribal justice 
officials with the additional authority to combat crime in 
their communities. It would enhance transparency toward nation 
consultation between Federal and tribal justice officials and 
encourage much greater cooperation a the local levels between 
tribes and local communities.
    I want to make one additional point. The U.S. Attorney for 
South Dakota, Marty Jackley, is here, for which I am very 
appreciative. I had invited the U.S. Attorney for North Dakota, 
he apparently has a court case, according to the Justice 
Department, that he has to take.
    I have asked, and I will ask for information about 
declination rates. I will ask the U.S. Attorney General. I 
asked specifically because I am interested in declination rates 
on all reservations and what the U.S. Attorneys' offices are 
doing with respect to cases. The only information on 
declination, by that I mean the Justice Department, through the 
U.S. Attorneys, declining to take a case, that exists is 
information that was obtained by Freedom of Information Request 
I think at Syracuse University and then published by the Denver 
Post. It showed a 50 percent declination rate for murder, lots 
of reasons for it, I am sure; 76 percent declination rate for 
sexual assault and rape.
    So as a result of that, for example, I have asked the 
Justice Department to give us the information more directly, so 
that we can understand what is happening. The Justice 
Department has declined to do that and said that they will not 
provide that information. So Senator Thune and I and others, 
when we get back into session in September, will begin to deal 
with that. I believe we need to understand what is the 
declination rate for the various U.S. Attorneys' offices and 
what is the purpose of it. No doubt much of it is perfectly 
understandable. No doubt, as well, some of it is not. That is 
especially the case because we have had direct testimony before 
our Committee at hearings by U.S. Attorneys and some others 
outside of the hearing who have said that the prosecution of 
crimes on Indian reservations, particularly in the case of the 
U.S. Attorney who testified directly, was not something that 
was considered an important issue. In fact, being too 
aggressive in prosecuting Indian tribe was taking time away 
from other duties and was frowned upon by the Justice 
Department. We need to get to the bottom of all that to 
understand what are these declination rates? Why would there be 
a 50 percent declination rate with respect to murder cases? I 
don't have the foggiest idea what that means, but I hope this 
Committee will be aggressive and take action to find out what 
it means.
    Let me call on Senator Thune for an opening statement, then 
we will get to our witnesses.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    I thank you very much for holding the hearing. I appreciate 
Sitting Bull College hosting us and I apologize for being a 
little bit tardy. We saw most of your State of North Dakota 
this morning, we had to go bypass and get around the storm, we 
flew up over Bismarck and various other parts of your State. So 
I got a chance to tour that today as well.
    I do appreciate our panelists for joining us today, and Mr. 
Chairman, thank you for hosting us here. It is good to be back 
at Standing Rock. I don't need, as Senator Dorgan has said, to 
explain the reason for the hearing. We are very concerned about 
the public safety issues as they relate to reservations. We 
have what some have described as a crisis on many of our 
reservations around the Country, including some here in North 
and South Dakota. And if you look at the studies that have been 
compiled, both by the Department of Justice as well as by the 
Attorney General in South Dakota, it is pretty telling, the 
homicide rate on South Dakota's reservations is 10 times higher 
than those found in the rest of South Dakota, and forcible 
rapes on the reservation are seven times higher than those 
found in the rest of the State.
    Unfortunately, until Operation Dakota Peacekeeper began, 
the Standing Rock Sioux Tribe was facing many of these same 
issues on a daily basis. So I appreciate very much the efforts 
that have been made by BIA, by Mr. Ragsdale in particular, and 
recognizing the need that we have here. And more importantly, 
following up with action.
    Having visited here in July, I had an opportunity to sort 
of look at what was transpiring, what was taking place. I think 
things seemed to be improving. I am looking forward to hearing 
from our witnesses today about how things have gone since the 
last time I was here and also to hearing about what steps might 
be taken in the future to continue to provide for safety and 
security and to make sure that once Operation Dakota 
Peacekeeper is over that that type of security and safety 
continues.
    So I am anxious to learn about that as well as about what 
Operation Dakota Peacekeeper has taught us in terms of the 
model that might be used in reservations around the country. 
Senator Dorgan has taken the Committee leadership there in 
terms of introducing this crimes bill that we hope will get 
through, the law enforcement bill through the Senate. I am very 
pleased to be a co-sponsor of that bill and I have worked with 
Senator Dorgan and others to try and put some things together 
that we think will really improve the security situation on our 
reservations across this country. I very much appreciate the 
opportunity to be here today, Senator, and thank you for 
inviting me and thank you all for attending. I look forward to 
hearing from the panelists today and asking them some 
questions.
    The Chairman. Senator Thune, thank you very much. We will 
hear from four witnesses today. Before we do, let me call on 
Steve Emory for a prayer.
    Mr. Emory. [Prayer in native tongue.]
    I would like to ask you all to remain while we honor our 
veterans. This song says we beneath the president's light our 
people stand, that they may continue to grow beneath it for 
generations to come and do this. And it is talking about the 
military service of our people.
    [Song in native tongue.]
    For those of you who don't hear Lakota so well, I just want 
you to know, we pray for all of you to have long lives, good 
health and happiness. We pray for all those here that are doing 
the people's work and we ask for the Lord's help.
    And today, especially, we remember our relatives here that 
are in mourning or have been struck by tragedy. And we pray for 
all of those, we pray for the orphans, the children, the 
elderly, those who are hospitalized, those who are 
incarcerated, for our soldiers who are across the seas in the 
land of the white sands, that they may all return home safely. 
All these things we pray for.
    [Phrase in native tongue.]
    The Chairman. Mr. Emory, thank you very much.
    We will hear from four witnesses today. First will be the 
Chairman of the Standing Rock Tribe, the Honorable Ron His 
Horse is Thunder. I would like to ask the witnesses to the 
extent they can to summarize. We have their entire statements 
and they will be part of the permanent record. It is our 
intention to hear from the witnesses, ask questions of the 
witnesses and then for a very brief time, if possible, if there 
are those in the audience who wish to stand up and make a 
comment, we will take some comments. Senator Thune and I have 
to be gone in about an hour and 45 minutes after the hearing 
begins.
    But I do want to have an opportunity to have the formal 
portion and if there is some time left, for a rather informal 
portion for those of you who have come and wish to make a 
comment, I would welcome that as well.
    Chairman His Horse is Thunder, thank you very much, you may 
proceed.

          STATEMENT OF HON. RON HIS HORSE IS THUNDER, 
              CHAIRMAN, STANDING ROCK SIOUX TRIBE

    Mr. His Horse Is Thunder. Senator Dorgan, Senator Thune, 
welcome back to Standing Rock. I don't think we have on the 
history of this reservation ever had Senators and Congressmen 
visiting our reservation on such a frequent basis, not only for 
the Dakota Peacekeepers Operation, but for other things on this 
reservation, and we welcome you back.
    We also want to say thank you, Senators, both you, Senator 
Dorgan and Senator Thune. We also want to thank Senator Conrad 
and Senator Johnson, and Congressman Pomeroy and Congresswoman 
Stephanie Herseth Sandlin for the letter that you wrote to the 
Bureau of Indian Affairs last May, saying that they needed to 
do something about the crime on this reservation. We know you 
signed the joint letter and we thank you for that, because 
without your letter, we don't think that this Dakota 
Peacekeepers Operation would exist at all. So we thank you for 
that letter. We thank you again for coming here today.
    I also need to thank Marty Jackley for coming again as well 
to our reservation. He has been here a number of times, not 
just for hearings, but also to try to take a look at what can 
be done for law enforcement on this reservation. We thank you 
for coming back. And Pat, we thank you likewise for putting 
together this operation, because it has made a huge difference 
on this reservation.
    Senators, I testified last month before the Senate 
Committee on Indian Affairs in terms of this operation. I 
reported to you then that we thought it was a success. We still 
believe it has been a success.
    I want to share two anecdotes with you. One, an elderly 
lady came to me shortly after the surge began and she said she 
felt safe for the first time in a long time on this 
reservation. She doesn't have air conditioning in her house, 
and in the summertime months, her house can get awfully hot. 
She said for the first time in a long time, she could sleep 
with her windows open. It has made a difference to our elderly.
    I have another story. A gentleman came to me and he said 
that he went to the local bar. He pulled into the parking lot 
about 11 o'clock at night. He thought the bar was closed for 
the night, because there were no cars. But he saw some lights 
inside, so he tried the door and the door was open. He went in, 
and amazingly enough he said there were a lot of people inside. 
What this means is simply that, the people have learned that 
you can't drive on this reservation and drink. For the most 
part, people have learned this lesson. People chose, instead of 
driving to the bar, to walk to the bar. So that means they are 
learning a lesson, what a difference it makes to have law 
enforcement around here.
    Now, I have a number of statistics in my written testimony 
and I won't go through them. We believe the surge is a success. 
But we are awfully concerned that this is a 90 day surge. So we 
are concerned what is going to happen after the 90 days is up. 
The 90 days will be done at the end of this month.
    So what happens then? Does that send a message to our 
people that they can go back to the ways they were, how they 
acted before? Is a little grandmother who could sleep with her 
windows open going to have to close her windows? We are 
concerned it is going to send a message to those people who 
engage in criminal activities that all they have to do is wait 
for another three weeks and go back to the way it was before.
    So we ask, Senators, if there is a way to make permanent 
this surge at the staffing levels that we currently have. We 
have, we believe, some long-term needs not only on this 
reservation but for other reservations as well.
    But in particular, one statistic I want to share with you 
is that in 2006 there were 44,000 requests for service, 
requests, phone calls into the police department asking for the 
police to be there. The response time then would have been an 
hour or two hours, even if they showed up at all, because they 
had other calls to go to. This year, as of July, we have had 
over 1,400 requests. Prior to the surge, we only had 10 law 
enforcement officers. When I took office as chairman of this 
tribe three years ago, at that point in time we only had five 
law enforcement officers, although we had a number of unfilled 
slots.
    This basically has set up a situation on the reservation 
where we are 25 percent below the average for Indian Country in 
terms of law enforcement officers, 66 percent below the average 
number of law enforcement officers per 1,000 inhabitants in 
non-Indian jurisdictions. We are way below the numbers we need 
to sustain good law enforcement on this reservation.
    The BIA officers who came to our reservation detailed from 
other reservations couldn't believe how large a land base this 
tribe had and was so poorly staffed. They have come to us and 
said they wish that other law enforcement officers from their 
reservations could come here to our reservation as well to see 
how well off their reservations were.
    One of the law enforcement officers who was detailed here 
made the comment, he said, what did you do to make the BIA so 
angry, in terms of referencing the number of law enforcement we 
had compared to theirs. We really need a comprehensive, not 
only is the surge good, but we also need a comprehensive 
criminal justice system to make it all work. Law enforcement 
officers in and of themselves is a good thing. But there are 
other components that we need on this reservation and other 
reservations to have a comprehensive criminal justice system.
    For example, when the surge began, we were promised that we 
would get more additional dollars for our courts. We didn't get 
the additional dollars until about two weeks ago, halfway into 
the surge. We did receive an additional $400,000, but prior to 
that we had to make do with the staff that we had. Our judges, 
our prosecutors were working seven days a week. We couldn't 
believe it.
    So if there is one recommendation about the court system 
alone, and that is, if there are going to be surges on other 
reservations, not only do they need law enforcement officers, 
but they are going to need likewise in their court system the 
dollars to keep up with the surge in the number of people who 
are arrested and arraigned on a daily basis.
    There are a number of other recommendations that we have. 
One of course is to make the surge staffing levels permanent. 
We need to provide funds for tribes to build new facilities to 
house police officers, tribal courts, adult and juvenile 
detention facilities, to keep up with the work generated from a 
fully-staffed law enforcement program. We need to fund 
alternative programs at Standing Rock, such as a drug court or 
wellness court, promote culturally appropriate drug and alcohol 
treatment through demonstration programs.
    We need to facilitate greater coordination and consultation 
between the State, Federal and tribal governments to establish 
long-term criminal justice goals and practices that are 
responsive to tribal needs. We need to direct the BIA to grant 
special law enforcement commissions to tribal gaming and fish 
rangers so that they may lawfully respond to tribal 
emergencies.
    Direct the BIA to approve State-certified law enforcement 
officers for patrol duties on Standing Rock. Establish a pilot 
program at Standing Rock to educate our youth about staying out 
of trouble, to encourage them to assume carers in law 
enforcement and provide recruitment incentives for them to join 
the BIA police academy. We need to improve communication among 
all first responders at Standing Rock, including a centralized 
9-1-1 call center and state of the art radio and GPS equipment 
for all people who are going to be responding to emergencies, 
not just the police officers.
    Those are just a few of the recommendations we have, 
Senators. Again, thank you for making the surge possible. It is 
doing a good job. But there are a number of other needs that go 
hand in hand to complement the additional officers that we find 
on this reservation. Law enforcement officers can amongst 
themselves, additional ones, truly make a difference, but we 
need other services also. Thank you, Senators.
    [The prepared statement of Mr. His Horse is Thunder 
follows:]

Prepared Statement of Hon. Ron His Horse Is Thunder, Chairman, Standing 
                            Rock Sioux Tribe
    My name is Ron His Horse Is Thunder. I am the Chairman of the 
Standing Rock Sioux Tribe. In June, in the wake of the murder of a 
young tribal member, the Bureau of Indian Affairs detailed a ``surge'' 
of 20 additional police officers to the Standing Rock Reservation in 
what is known as ``Operation Dakota Peacekeeper.'' I am pleased to 
provide the Committee with testimony today on the effect of Operation 
Dakota Peacekeeper, the future of this law enforcement surge, and the 
greater law enforcement and justice needs at Standing Rock.
    I want to express my thanks to Senator Dorgan, Senator Thune, 
Senator Johnson, Senator Conrad, Congresswoman Herseth and Congressman 
Pomeroy for making this surge possible. Were it not for your 
intervention--and the May joint letter of the entire North Dakota and 
South Dakota Congressional delegation to the BIA--there would not have 
been a surge and I would not be speaking to you today. Your advocacy on 
our behalf has made our Reservation safer and has given us hope.
    I will relate statistics shortly, but numbers aside the increased 
police presence on our Reservation has made an enormous difference in 
our community's sense of safety. In particular, the most vulnerable 
members of our community, including elders and single parents with 
young children, no longer feel as if they have been abandoned by the 
BIA. People feel safer walking outside at night. The surge has 
contributed to a feeling of community safety that has been unknown to 
our members for many years now.
    I must also thank the many Tribes who have contributed BIA police 
officers to the surge. I also want to thank former Assistant Secretary 
Carl Artman and BIA Justice Service Deputy Director Pat Ragsdale, who 
joins me here today, for their excellent response to our law 
enforcement crisis. I also want to thank South Dakota U.S. Attorney 
Marty Jackley, who also joins me here today, for the support and 
cooperation he has shown to the Tribe.
Operation Dakota Peacekeeper
    The surge has significantly increased law enforcement on our 
reservation. In the month of June, police made a total of 541 arrests. 
Of these, 341 arrests, about \2/3\ of all arrests, were made by surge 
officers. The statistics available so far for the month of July show 
similar results--395 arrests, the majority of which were made by surge 
officers. In these two months, the presence of additional officers has 
more than doubled our capacity to respond to crimes and make arrests.
    As a consequence of the surge, our court dockets are full, and our 
jail is so full that we now have arraignments seven days a week. We 
have also seen an increase in referrals to child protective services. 
While these statistics may not seem positive, they mean that some of 
the problems occurring are being addressed for the first time in years.
    Through your efforts, Congress provided $26 million in additional 
funding for BIA law enforcement in FY 2008, including $10 million ``to 
reach the areas of greatest need, particularly remote reservations.'' 
We are certainly a remote reservation and in FY 2007, our violent crime 
rate was 1,138 per 100,000, placing us in the top nine ``high crime'' 
reservations. \1\ The May letter to the BIA inquiring about the 
allocation of this funding was undoubtedly the catalyst for the surge, 
and our Congressional delegation has continued to advocate for improved 
law enforcement in Indian country, most recently by introducing the 
Tribal Law and Order Act of 2008 and the $2 billion authorization in 
H.R. 5501 for an Emergency Fund to address law enforcement, health and 
water needs in Indian country.
---------------------------------------------------------------------------
    \1\ In February 2008, the Tribe was informed by Mr. Ragsdale that 
Standing Rock had the second highest violent crime rate of any 
reservation. Sadly, any change in the Tribe's ranking is due to 
increased crime on other reservations, not a decrease at Standing Rock.
---------------------------------------------------------------------------
    My concern and frustration is knowing that this surge is limited in 
duration. Mr. Ragsdale told this Committee in June that the surge would 
only last three months, but this mission is far from accomplished. 
Pulling out the additional officers now would mean our officers would 
again be able to respond to less than half the crimes committed. A 
temporary increase in police presence does little to deter crime in the 
long run--people will learn quickly that the BIA no longer has enough 
officers to patrol and make arrests effectively, and crimes will once 
again go undetected and unpunished. The worst part will be that our 
community members will be left with a false sense of safety, and they 
may learn the hard way that the police are no longer there to protect 
them.
    Senators, I am asking on behalf of my Tribe that the surge staffing 
levels be made permanent and that adequate resources be appropriated to 
meet our needs. We have gone too long without adequate police officers, 
dispatchers, cruisers, communications equipment, judges, Tribal 
prosecutors, public defenders, detention center personnel, counselors, 
and alternative programs such as Wellness and Drug Courts. We must work 
together to stop the bloodletting at Standing Rock and take affirmative 
measures to heal our community's wounds in culturally appropriate ways.
Long-Term Police Needs
    We know that the recent increase in arrests is not due to an 
increase in underlying incidents. These problems have been occurring on 
the Reservation for years, but the Tribe has simply not had the 
capacity to respond. For example, hospital data from 2005-2006 shows 
170 admissions for motor vehicle accidents, 499 admissions for assault, 
and 72 admissions for attempted suicide. Data from 2006-2007 shows 208 
admissions for motor vehicle accidents, 611 admissions for assault, and 
71 admissions for attempted suicide. In 2006, there were a total of 
44,000 requests for service to the police department. In July 2007 
alone, there were 1,400 requests. The surge statistics confirm the 
existence of a problem that our justice system is only now beginning to 
be able to address.
    Without the surge officers, our justice system is pitifully 
understaffed and underfunded. The Reservation comprises 2.3 million 
acres, of which 1.4 million acres is Tribally owned and allotted trust 
lands. About 10,000 Tribal members and non-members reside on the 
Reservation in eight communities and in smaller towns. Before the 
surge, we had only ten BIA police officers. This is enough for only two 
officers per 24-hour shift to patrol a 2.3 million acre reservation 
encompassing four towns, eight separate communities, 2,500 miles of 
roads, and a population of 10,000 residents. This is 25% below the 
average for Indian country and about 66% below the average number of 
officers per 1,000 inhabitants in non-Indian jurisdictions. \2\
---------------------------------------------------------------------------
    \2\ A 1997 Justice Department study found that Indian country had 
1.3 officers for every 1,000 inhabitants, versus 2.9 officers in non-
Indian jurisdictions.
---------------------------------------------------------------------------
    BIA police officers who have been detailed from other reservations 
cannot believe a large land-based Tribe such as Standing Rock is so 
poorly staffed and equipped. They have told us that they want their 
officers to come to Standing Rock to see how well off they are at their 
reservations. Our Reservation is one of the largest, yet our police 
funding and staffing levels are among the lowest. They ask us, ``What 
did you do to make the BIA so angry? ''
    As a result of inadequate law enforcement, we have one of the 
highest reservation crime rates. A 2006 ``Gap Analysis'' commissioned 
by the BIA to identify and review current policing and detention 
capacity in Indian country found that BIA District 1, which encompasses 
an eight-state region including North and South Dakota, had 108 law 
enforcement officers (LEOs), but needs over four times that amount (483 
LEOs). In 2007, the BIA estimated that we would need at least 28 
officers at Standing Rock to meet minimally safe staffing requirements, 
yet by spring of this year we still had only ten officers, despite our 
repeated requests to the BIA for more officers and despite Congress' 
increased funding to the BIA in FY 2008 to provide more officers on 
high crime reservations. In fact, the BIA has never satisfactorily 
explained to Great Plains Tribes how they allocate law enforcement 
resources; all we know is that Standing Rock always seems to lose. 
Operation Dakota Peacekeeper has temporarily provided us with minimally 
adequate staffing, but the BIA has told us we can expect to go back to 
our old levels in a month.
    We need this increase to be made permanent, and we ask the 
Committee for your assistance with ensuring that we are not once again 
left with only ten officers next month. When the United States took the 
Black Hills on February 28, 1877, it promised to secure to us an 
orderly government. Ex Parte Crow Dog, 109 U.S. 556, 566, cites Article 
8 of that Act as follows:

        The provisions of the said treaty of 1868, except as herein 
        modified, shall continue in full force, and . . . Congress 
        shall, by appropriate legislation, secure to them an orderly 
        government; they shall be subject to the laws of the United 
        States, and each individual shall be protected in his rights of 
        property, person, and life.

    This provision remains good law and demonstrates the responsibility 
of the United States to make the increased number of law enforcement 
officers assigned to the Standing Rock Reservation permanent positions.
Comprehensive Justice Needs
    It is also important for the Committee to know that the officer 
surge addresses only the tip of the iceberg. The Tribe is struggling to 
provide a comprehensive criminal justice system for our members. This 
includes police, courts, detention and alternative services, such as 
Drug/Wellness Courts and alcohol and drug treatment services to reduce 
our need for detention space. In many ways, Operation Dakota 
Peacekeeper has only served to highlight deficiencies in our system.
    Our courts are understaffed. With police responding to more crimes 
and making more arrests, our court dockets are bursting at the seams. 
We currently have three full-time trial judges, one assigned to the 
Children's Court. Our judges have been working around the clock and on 
weekends to process arraignments. We need at least one more full-time 
judge to handle all cases.
    Our law enforcement facilities are overcrowded. Surge officers are 
working out of a trailer in McLaughlin/Bear Soldier, and at Fort Yates 
they are squeezed into our existing police station. They are being 
housed in the casino hotel. Our jail is overcrowded as we try to 
accommodate the new influx of pre-trial detainees and provide space for 
offenders who receive longer sentences.
    We have no 9-1-1 service on the Reservation. In emergencies, Tribal 
members residing on the South Dakota portion of the Reservation who 
dial 9-1-1 reach the McLaughlin or Mobridge police departments. Calls 
must then be referred to the BIA police at Fort Yates, but the response 
takes too long and precious moments are lost repeating the emergency 
request. Lives hang in the balance. There is no ``golden hour'' in 
Indian country and other rural areas.
    We also have insufficient staff to provide proper police dispatch 
services. Before the surge brought additional dispatchers, we had times 
when a dispatcher would call in sick, leaving a single officer on duty. 
That officer could not patrol at all because he had to stay behind to 
answer calls and serve as a dispatcher. Our equipment and technology is 
outdated, including our cars, radios and communications infrastructure. 
We do not even have access to computerized law enforcement statistics. 
To prepare for this hearing, we had to rely on BIA printouts.
    We have nowhere to place juvenile offenders. As you know, we have 
been working for years to complete construction on an 18-bed juvenile 
detention center on the Reservation. Right now, we have no juvenile 
facility. Youth are sometimes temporarily held at the adult facility, 
which we believe raises serious questions about whether these youth are 
properly separated from adult offenders and whether they are being 
housed in youth-appropriate facilities. For longer terms, the BIA 
contracts with surrounding facilities at Cheyenne River, Pine Ridge and 
Bismarck, provided there are beds available. In 2008, Tribal youth 
needed 528 juvenile male contract bed days and 210 juvenile female 
contract bed days--a monthly average of 75.4 bed days for males and 30 
bed days for females. At a bed cost of $102 per day, this means over 
$75,000 was spent on bed space alone, not counting the costs of 
transportation or staff time associated with bringing juveniles to 
facilities located several hours away. When there are no beds 
available, youth are simply released back into the community.
    Finally, we need additional resources for youth. We need school 
resource officers with adequate equipment to respond to emergency 
situations at school. We need additional officers assigned to the 
Standing Rock youth court system. We need drug treatment programs and 
transitional living facilities. Even with the increased arrest 
statistics, it is clear that the majority of our youth are arrested for 
offenses such as Minor in Consumption, Motor Vehicle Accident, 
Disorderly Conduct and Open Container. Recognizing the enormous mental 
health, suicide and drug and alcohol abuse problems among our youth, 
the Tribe had originally hoped to open a youth services center that 
could accommodate transitional housing and therapeutic services as well 
as detention, but the project has been gradually reduced in size and 
scope, and the BIA has shown little support for youth treatment 
services.
Recommendations
    In conclusion, the Tribe makes the following recommendations, which 
we think will make a meaningful difference in our community:

  <bullet> Make the surge staffing levels permanent. To fund this, BIA 
        could use a portion of extra law enforcement funding provided 
        in FY 2008 or could use funding appropriated under the newly-
        enacted H.R. 5501.

  <bullet> Provide funds for the Tribe to build new facility space to 
        house a Police Department (including a McLaughlin substation), 
        Tribal Courts, and adult and juvenile detainees to keep up with 
        the work generated from a fully staffed law enforcement 
        program.

  <bullet> Provide funding for the Tribe to build on-reservation 
        housing for additional law enforcement personnel.

  <bullet> Fund alternative programs at Standing Rock, such as a Drug 
        Court or Wellness Court, and promote culturally appropriate 
        drug and alcohol treatment through demonstration programs.

  <bullet> Facilitate greater coordination and consultation among 
        State, Federal, and Tribal governments to establish long-term 
        criminal justice goals and practices that are responsive to 
        Tribal needs.

  <bullet> Direct the BIA to grant Special Law Enforcement Commissions 
        to Tribal Game and Fish Rangers so that they may lawfully 
        respond to Tribal emergencies. The Tribe has drafted a 
        deputization agreement and adopted a supporting resolution to 
        accomplish this. U.S. Attorney Jackley has offered to provide 
        training for Tribal Rangers and to assist the Tribe in seeking 
        federal credentials for these officers, but the BIA has so far 
        refused to cooperate.

  <bullet> Direct the BIA to approve State-certified law enforcement 
        officers for patrol duties at Standing Rock. The requirement 
        that officers travel to New Mexico for 16 weeks to receive 
        training has severely inhibited our ability to recruit 
        officers. It is difficult for our members to spend such a long 
        time away from their families, and we have lost potential 
        officers because of difficulties with the training 
        requirements. The Tribe has a standing offer from South Dakota 
        state officers to allow Standing Rock officers to train for 
        free at the Pierre training facility, but the BIA has so far 
        refused to consider this option.

  <bullet> Establish a pilot program at Standing Rock to educate youth 
        about staying out of trouble, encourage them to pursue careers 
        in law enforcement, and provide recruitment incentives to join 
        the BIA Police academy.

  <bullet> Improve communication among all First Responders at Standing 
        Rock, including a centralized 9-1-1 call center and state-of-
        the-art radio and GPS equipment.

    I would like thank the Committee for traveling to Standing Rock to 
hold this hearing and for your continued attention to the law 
enforcement needs at Standing Rock. It is through your efforts that we 
have been able to attain a small measure of peace and public safety, 
and we ask you to work with us to make permanent and build on this 
improvement.

    The Chairman. Mr. Chairman, thank you very much. We 
appreciate your hospitality and also your leadership and we 
appreciate your testimony this morning.
    Next we will hear from Mr. Patrick Ragsdale, who is in 
charge of law enforcement for the Bureau of Indian Affairs. Mr. 
Ragsdale, thank you for your testimony before the Indian 
Affairs Committee in Washington and also for coming here. My 
understanding is that you came earlier this weekend and have 
spent some time with the BIA officers, and we appreciate that 
work. So why don't you proceed?

 STATEMENT OF W. PATRICK RAGSDALE, DIRECTOR, OFFICE OF JUSTICE 
           SERVICES, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Ragsdale. Thank you, Mr. Chairman. You have my full 
statement for the record, which was prepared about a week and a 
half ago. What I would like to do, if the Chairman pleases, and 
thank you, Senator Thune, for being here as well, you have had 
an opportunity to be here on the reservation and back in 
Washington.
    What I would like to do is just use my time to report on 
what results we think we have achieved, Mr. Chairman. I want to 
take just a moment to thank the police officers, the court 
personnel, the corrections officers, and especially the Indian 
community here at Standing Rock who have received all of our 
police officers, including the standing police here, with just 
the greatest reception that I have ever experienced. Even back 
home, I have never seen a community respond to positively to 
the assistance that we have tried to provide.
    In early May, Mr. Artman, the former Assistant Secretary, 
gave me a call while I was attending the law enforcement 
memorial in Artesia, New Mexico, and asked me to consider 
providing additional resources to Standing Rock. And I took 
some time with my staff, I had a lot of my leadership staff 
there with me at Artesia, which is an annual event to 
memorialize the fallen police officers in Indian Country. And 
we worked out a plan. And after we had worked out a plan, I 
shared the plan with Chairman His Horse is Thunder and we 
agreed that it was something that we believed that we could 
reasonable accomplish with tribal cooperation, so we proceeded.
    We identified five basic objectives. And I will address 
each one of those objectives. The first objective was to reduce 
crime. As a result of this operation, we have made 1,000 
arrests in two months of operations, which is a very large 
number. Approximately 700 arrests were made the first month. 
The second month we made about 300 arrests. We have had five 
Federal, activated five Federal cases that include assault with 
a dangerous weapon, three cases of assault resulting in serious 
bodily injury and one rape. Over the weekend we have had two 
rape investigations initiated as a result of the incidents that 
were reported.
    It appears that serious crime has gone down with the same 
amount, with the additional law enforcement presence on the 
reservation. The peak of 700 down to 300 arrests indicates a 
favorable trend. Now, I will not tell you that, from a 
statistical standpoint, how meaningful those statistics are for 
a short period of two months. But it does appear that violent 
crime and serious crime is starting to trend down with the law 
enforcement presence.
    We responded to more than approximately 6,700 calls for 
service in June and July. I provided the Committee staff last 
week with some numbers, so you could do some comparison with 
previous months and years. That is a high number.
    Our second objective was to target illegal drug activities. 
And in that regard, we have conducted active highway saturation 
patrols, DUI checkpoints, had three to four drug canine units 
on the reservation throughout the entire operation. We have 
made 34 drug-related arrests for June and July, 231 alcohol-
related arrests for June and July. And according to law 
enforcement intelligence services, organized drug traffickers 
have moved off the reservation during this period of time. I am 
not saying that they are gone, but I have talked to our task 
force personnel personally, and some have characterized our 
operation as sort of a blitz. The result was that the organized 
traffickers have moved back.
    Our third objective was to provide investigations to 
prosecute domestic violence. We made 86 arrests for domestic 
violence in June and July. We have responded to 93 cases of 
reported domestic violence in June and only 36 in July, which 
again indicates, we hope indicates a trend downward of these 
types of incidents.
    Our fourth objective was to investigate, provide 
investigate resources to prosecute crimes against children. We 
made 21 arrests during June and 35 in July. We responded to 32 
cases of reported crimes against children for June and 38 for 
July. We responded to four calls for service regarding elder 
abuse for June and none in July.
    Finally, our fifth and final objective was to develop a 
strategy to promote a safe community on the Standing Rock 
Reservation. We have been involved in many policing activities, 
we have had 16 community meetings and community involvement in 
these meetings ranged from 15 to 50 people at a time. We have 
made four presentations at various schools on the reservation 
with our police resource officer. We have deployed three police 
officers with experience in school resources for this operation 
and plan to have two more permanent officers, permanent 
resource officers, in the future.
    In August, a regional community policing institute had been 
contacted in order to facilitate a safe community strategy and 
liaison with the agencies and department of the State, tribe 
and Federal Government. I think we will have a total community 
mobilization effort to address such other problems, such as 
youth suicide.
    In order to accomplish our objectives, we provided the 
Committee and the tribes with a summary of our operating plan, 
which is basically a five point plan. I will just review very 
quickly the accuracy of the plan and our execution of it. First 
of all, we described the situation in summary was that an 
environment highly conductive to lawlessness existed on this 
particular reservation. In retrospect, after dealing with the 
community leaders, tribal leadership and the government, we 
think we accurately described the situation when we arrived.
    Our mission was to ensure that Indian communities and 
people are safe. We believe as a result of this operation the 
community is safe, based upon tribal leadership's response and 
based upon walking the streets and going to the pow-wows and 
other activities and talking with individuals. The execution of 
the plan started in June 2008, with employment of approximately 
20 officers. They have been proactive. We have worked on 
contingency plans to address particular situations. We have had 
the total assistance and cooperation of the tribal government 
and the agencies thereunder. We have made some specific 
recommendations to the tribe in regards to cross-deputization 
with other States and local authorities. We have provided 
additional criminal investigators for this operation, so that 
we can diligently work the cases.
    In retrospect, probably if we were to replicate this 
operation somewhere else, we would provide more uniforms and 
less criminal investigators at the outset and bring the 
criminal investigators in after a month or so of the operation.
    The administrative support and focus on assistance has been 
ongoing. Some of the administrative logistics, you will notice 
if you have been around for the last couple of months, you will 
see a variety of different uniform personnel here, with the 
support of the tribal governments. I will tell you that if we 
had not had the support of a lot of the tribes who provided 
their own police officers individually, it would have been hard 
to sustain this particular operation.
    We have detailed additional corrections staff in to handle 
the additional prisoner workload. The Chairman has mentioned 
that we provided some additional funding. That was one of the 
lessons learned, that we did not really think about the strain 
on the court when we started this operation. And about, I think 
the last time I was up here with Senator Thune we talked about 
that, and we shortly thereafter that provided some additional 
funding for the tribes to be able to handle that.
    Another item that I think will be useful for the tribe as 
well as our entire tribal judicial system is that you consider 
maybe activating some drug courts in Indian Country. Now, 
having said that, if you are going to do that, you are going to 
have to have probationary resource personnel. And drug courts, 
if I understand the actual operation of them, are very 
intensive, require intensive attention to the system. Because 
you are constantly meeting with offenders that are on 
probation, checking on them, working with them to make sure 
that they are in productive work and so on. Most of our court 
systems in Indian Country are not set up to do that.
    Command and coordination I think has worked fairly well. We 
have had good coordination with the tribe, in particular with 
the Chairman. The community has received us better than 
anything I have ever seen.
    Our summary findings are that the community is safer, as 
evidence by such comments as, they can leave their windows at 
home open at night without fear. They have a normal community 
now. They can sleep at night. The community now interacts, and 
I believe this is personally, with law enforcement personnel 
much more than they ever have. And overall, there appears to be 
a decrease in violent crime.
    The Chairman talked, the best form of flatter is imitation, 
so I am going to flatter the Chairman by repeating some things 
that he said. At the hearing we had in Washington, he used the 
term pillars of the public safety system. Indeed, the basic 
elements of any public safety system in any community are based 
upon how the peacekeepers or law enforcement officers have a 
system of discipline in the form of a corrections system and 
having a sound judicial system to support it.
    And finally, and I think probably the most important 
element of having a good public safety system anywhere is 
community support. You certainly have that at Standing Rock.
    I will conclude my testimony, Mr. Chairman, and look 
forward to answering your questions.
    [The prepared statement of Mr. Ragsdale follows:]

Prepared Statement of W. Patrick Ragsdale, Director, Office of Justice 
               Services, U.S. Department of the Interior
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mr. Ragsdale, thank you very much. Next we 
will hear from the U.S. Attorney from South Dakota, Mr. Marty 
Jackley.

STATEMENT OF HON. MARTY J. JACKLEY, U.S. ATTORNEY, DISTRICT OF 
                          SOUTH DAKOTA

    Mr. Jackley. Thank you, Mr. Chairman and Senator Thune. I 
appreciate the opportunity to be here on behalf of the 
Department of Justice.
    I do want to express, on behalf of the Attorney General, as 
well as the U.S. Attorney community, our commitment to improve 
public safety in Indian Country. As we look at the South Dakota 
U.S. Attorney's office, I would like to take just a moment to 
describe what we do in Indian Country. We of course have nine 
Indian reservations in South Dakota. We service Indian Country 
from three main offices. Twenty of our 28 United States 
Attorneys, Assistant United States Attorneys, are in the 
criminal division. That basically means 20 of our lawyers, 
including our U.S. Attorney, have a fairly active criminal case 
load.
    When we look at our criminal case load in South Dakota, 
about 50 to 65 percent of the prosecutions that occur, occur 
out of Indian Country. Some of the things that we have found 
that work well with Indian Country are having tribal liaisons. 
I realize that North Dakota does the same thing under Mr. 
Wrigley's office. We assign, for each of our reservations, an 
AUSA to act as liaison, so that AUSA is familiar with the 
tribal court system, handles the cases arising out of that 
reservation. It has worked very well for us.
    There is a distinguishment between what are often referred 
to as national tribal liaisons, which would simply mean we have 
three of those in our office, one out of Rapid City, one out of 
Pierre and then myself out of Sioux Falls, that coordinate with 
the national system. Because of the number of reservations we 
have in South Dakota, in addition to the three national tribal 
liaisons, we have approximately between 10 and 15 lawyers 
acting as tribal liaisons.
    Something else we have done in South Dakota that we feel 
works really well in Indian Country are the MDT or multi-
disciplinary team meetings with respect to sexual abuse cases. 
Our lawyers come to each reservation approximately once a month 
to meet with tribal and State officials, health care officials, 
law enforcement, on sex abuse cases for some of the most 
vulnerable individuals on the reservation, young children.
    I would like to focus a little bit on Dakota Peacekeeper. 
We have found a great success story here. I know that the 
tribal Chairman and Mr. Ragsdale have talked about the numbers. 
What those numbers show is approximately a five-fold increase 
in arrests, going from an average of 109 per month to the two-
month time frame of 1,000 arrests. That has been a significant 
success story. But I think more importantly, the success story 
shown in the community, the outpouring of the community in 
support of the operation is all over the place.
    I think as we move forward and we finalize this operation 
and look to potential future operations, there are some lessons 
to be learned or some things to look at. One remains the 
importance of communication and coordination with all law 
enforcement, that is tribal, State and Federal. I think that 
can be brought about with cross-deputization. I understand the 
concerns oftentimes that are politically raised with regard to 
the word cross-deputization. But again, it acts as a force 
multiplier when dealing with non-Indians and Indians. I would 
simply urge at least consideration with respect to that.
    I think it also is important to use a word of caution when 
relying upon law enforcement resources from other reservations, 
so we do not deplete any of those very valuable resources.
    As far as the South Dakota U.S. Attorney office's 
commitment to Dakota Peacekeeper and ultimately improving 
public safety in Indian Country, I will represent to you as the 
U.S. Attorney from South Dakota that we will aggressively 
prosecute those cases brought to us by law enforcement 
authorities as part of the operation as well as anywhere in 
Indian Country.
    Some additional things we have been doing in South Dakota 
with respect to the BIA Special Law Enforcement Commissions, in 
June the South Dakota U.S. Attorney's office teamed up with the 
BIA and the Colorado U.S. Attorney's office and held a two-day 
Indian Country course work in Pierre. We had a strong showing 
of approximately 40 officers who participated in that class.
    The other thing that we are doing is with respect to 
training of tribal prosecutors. In August, the South Dakota 
Attorney General and the U.S. Attorney's office in South Dakota 
have teamed up for a one-day trial advocacy course and have 
invited all tribal prosecutors to come to Pierre and attend, as 
well as to attend a social event in the evening just to improve 
interaction between State, Federal and tribal prosecutors.
    Finally, I think there has been a strong effort and there 
needs to continue to be a strong effort in both South Dakota 
and North Dakota to expand the Safe Trails Drug Task Force. I 
can tell you, from the South Dakota side, our task force has 
received the National Indian Country award. Fairly recently, 
with respect to this area, there were 45 individuals indicted 
on a methamphetamine conspiracy. Thirty-two were taken 
federally and we received convictions on all 32. It has been a 
very effective mechanism to improve public safety in Indian 
Country. As a commitment from the U.S. Attorney's office in 
South Dakota, we have assigned a full-time AUSA to prosecute 
cases out of the task force, and the South Dakota Attorney 
General and the South Dakota U.S. Attorney have the Joint 
Special Assistant United States Attorney that also is assigned 
permanently to the task force to improve those prosecutions.
    Lastly, I wanted to hit a moment on declinations, because I 
know the Senator had raised a concern. I want to talk a little 
bit about the Department's policy, the terminology and how we 
handle declinations in South Dakota.
    I think you are aware that South Dakota puts out an annual 
report where we set forth what prosecutions have occurred, and 
we break it down by major crimes, we break it down by the 
reservations. I have some available here today if folks want to 
receive copies of those.
    But what is not contained in those reports are the 
declination rates. And when we talk about declinations, I think 
it is important to understand, there is a declination rate, 
which is a mere percentage of those cases that a U.S. Attorney 
prosecutes versus declines to prosecute. And then there is a 
declination report. A report contains perhaps more sensitive 
information that can affect potential outcomes of prosecutions. 
It has been the Department's policy to not disclose declination 
reports or rates. I think you have heard from two of my 
colleagues, Arizona's U.S. Attorney and North Carolina's U.S. 
Attorney, that talked in detail about the concerns that 
declination reports and rates can have with respect to ongoing 
investigations.
    I did want to point out there is a specific example in my 
district, in the District of South Dakota, where a declination 
came in, in a court proceeding, the case was United States v. 
Carter. It's a 2005 Eighth Circuit decision where the trial 
level in 1986, an AUSA had signed a declination on a rape 
matter. And ultimately in the prosecution of a 2001 rape, the 
issue came up, the judge allowed the declination letter as an 
exhibit, it was Exhibit O. We litigated it, we litigated in the 
Eighth Circuit. We lost the admissibility issue.
    The reason I talk about that is, in our district, because 
of that, you are going to hear me discuss referrals. So we 
don't necessarily like to call matters declinations. We will 
refer them for tribal prosecution. We will refer them for State 
prosecution.
    Also when you look at declinations, it is important to 
understand, so that there can be a comparison of apples and 
apples. When a matter comes into a U.S. Attorney's office, it 
is considered a file matter. U.S. Attorneys have discretion on 
which matters they are going to accept as file matters. In 
other words, does it have to be a written report from law 
enforcement, can it be a verbal report, can it be a report from 
non-law enforcement. So there are a variety of different ways 
that you are able to determine which comes into a U.S. 
Attorney's office and is opened as a file matter.
    Then once a file matter is opened, when you look at the 
Department's statistics, it is either prosecuted or it is 
declined. But we have various things that occur when you 
mention declined. One can be an immediate declination. What 
immediate declination, at least in my district is, it is just 
simply no jurisdiction on the case. It may be a non-Indian 
assaulting a non-Indian in Indian Country, so we wouldn't have 
jurisdiction over that. It may be a barking dog on Pine Ridge. 
Again, we wouldn't have Federal jurisdiction on that, it is not 
a major crime.
    So there is an immediate declination of filing, and then 
there is what would be called a true declination, and that is 
when our lawyers have spent more than an hour analyzing the 
matter and addressing the matter and ultimately determine for a 
variety of different reasons that we are going to decline the 
case.
    The third category, at least in the District of South 
Dakota, is a referral category. What that means is basically, 
we have looked at it, it is not a matter that we are going to 
prosecute. We are not saying it is a prosecutable case, but we 
will refer it to either the State Attorney General's office or 
the tribal prosecutor to handle. It is important, when you note 
about referrals, there is no double jeopardy between a Federal 
and a tribal prosecution. Similarly, there is no Department 
policy hindering prosecution by both Federal and tribal 
prosecutors.
    So as you can see, when you look at that terminology, there 
are a variety of things that can actually constitute a 
declination. If you look at just simply a rate, it doesn't 
necessarily accurately depict a picture for you.
    I will tell you, in the District of South Dakota, prior to 
January of 2008, we pretty much opened a file matter for 
everything. That means written reports from law enforcement, 
verbal reports, written reports from non-law enforcement, 
perhaps it might be Department of Social Services, it might be 
IHS, a report comes in. We had a huge number of file matters. I 
think the Senator referenced the statistics that were published 
in the Denver Post. So if you look at South Dakota's pre-
January 1, 2008 statistics, you are going to see a high 
declination rate, according to those numbers.
    In January of 2008, I changed our policy, so that our 
policy says, for a file to be opened in this district, a couple 
of things have to happen. It either has to be a written report 
from law enforcement. Number two, if we are doing anything in 
relation to grand jury, we open up a file matter. And number 
three, the catch-all provision is if a lawyer in our office 
feels it is an important matter, then we are going to open up a 
file.
    We have since revised the policy a couple of weeks ago to 
be a little more specific. What we were finding out with 
respect to our referral letters, we were simply sending 
referral or declination letters to law enforcement, actually 
through the help of Mike Swallow, we learned that the 
prosecutor wasn't always receiving those. So our new policy is 
that when we decline or refer a matter, at least when it is 
tribal, the letter will go to both the law enforcement agency 
as well as to the tribal prosecutor.
    But again, because of the U.S. v. Carter decision, they are 
going to be a very general letter. They aren't very specific to 
why we are declining it or referring it. But that is the reason 
for that, and I am happy to answer any questions that the 
Senators may have about the declination policy, Dakota 
Peacekeeper or the District of South Dakota.
    [The prepared statement of Mr. Jackley follows:]

Prepared Statement of Hon. Marty J. Jackley, U.S. Attorney, District of 
                              South Dakota
    Chairman Dorgan and Members of the Committee: The Department of 
Justice (the ``Department'') appreciates the opportunity to provide 
testimony to the Committee regarding Operation Dakota Peacekeeper. I am 
Marty Jackley, and it is my privilege to serve as the United States 
Attorney for the District of South Dakota.
    The Department understands the importance and the challenges of 
combating crime and violence in and around our Indian communities. The 
President and the Attorney General are committed to working with 
tribal, state, and local law enforcement, the Department of the 
Interior, and others, to provide public safety and security for people 
living in Indian Country.
    The South Dakota US Attorney's Office has the critical 
responsibility of prosecuting major crimes and federal offenses 
occurring within our nine reservations. Twenty of our twenty-eight 
assistant US attorneys are designated as criminal prosecutors who serve 
South Dakota's reservations from three offices located throughout the 
state.
    Our office has historically demonstrated a strong commitment to 
improving public safety in Indian Country. Generally, 50-65 percent of 
our criminal prosecutions involve incidents occurring within Indian 
Country.
    In addition, our office and the United States Attorney's Office in 
the District of North Dakota have both designated Assistant U.S. 
Attorneys (AUSA) to serve as the primary prosecutor and tribal liaison 
for each reservation. The close working relationships which develop 
between these AUSAs, their tribal counterparts, and other law 
enforcement officials have yielded many successful prosecutions and 
have had a tangible effect upon improving public safety.
    The AUSAs assigned to specific reservations also organize and lead 
meetings of multi-disciplinary teams, or MDTs. These MDTs meet monthly 
to discuss potential or pending criminal sexual abuse cases involving 
some of the most vulnerable victims in our society.
    On May 14, 2008, Secretary of the Interior Dirk Kempthorne 
introduced ``Operation Dakota Peacekeeper'' (the ``Operation'') in an 
effort to strengthen the law enforcement presence in the Standing Rock 
Sioux Reservation communities. The Operation was a rapid response to 
escalating criminal activity on the reservation, which already has a 
rate of violent crime that is approximately six times the national 
average.
    The first of three phases of the Operation commenced on June 2, 
2008, when fifteen patrol officers and five criminal investigators 
reported to the Standing Rock Reservation. Completion of Phase II on 
July 25, 2008, demonstrated impressive initial success which included 
1,004 total arrests. This represents roughly a fivefold increase in 
arrests from the reservation's average monthly total of 109 arrests. 
Most of the arrests during Phases I and II of the Operation involved 
juveniles and misdemeanor alcohol-related offenses. Main Justice and 
the US Attorneys' Offices are committed to the prosecution of federal 
criminal violations referred as a result of the Operation.
    Perhaps the Operation's true success is best demonstrated by the 
outpouring of community support. Standing Rock residents are grateful 
for the increased law enforcement presence and community outreach. 
Operation officials have conducted 16 public meetings, centered upon 
public education and increased involvement in public safety, 
neighborhood watch programs, and controlled substance prevention. 
Officers have also utilized the Pow Wow celebrations as an additional 
opportunity to increase public awareness for resources such as child 
protection services.
    Even with the early success of the Operation, areas for improvement 
remain as we seek to sustain enhanced public safety for all of our 
Indian communities. Coordination and communication are essential and 
involve all of the law enforcement agencies operating in and around 
reservations. This includes state, federal, and tribal officers whose 
cooperation is critical to neutralizing the efforts of many criminals 
who seek to exploit jurisdictional differences by moving in and out of 
Indian Country. In addition, cross-deputization for officers, when 
practical, may create more efficient utilization of law enforcement 
resources and serve as a force-multiplier when dealing with Indian and 
non-Indian offenders. Planners should also proceed cautiously in 
relying upon law enforcement resources from other reservations to 
support the operation. Ultimately, long-term planning is necessary to 
ensure the success of any operation such as the one underway on the 
Standing Rock Reservation. To assist in the continued success of the 
Operation and as part of our commitment to public safety in Indian 
Country, our US Attorney's Office has developed a strategy which 
features three components:

        (1) joint Special Law Enforcement Commission (SLEC) training;
        (2) training for tribal prosecutors; and
        (3) expansion of the Northern Plains Safe Trails Drug Task 
        Force led by the Federal Bureau of Investigation (FBI).

    Under the SLEC program, we have partnered with the Department of 
Interior, Bureau of Indian Affairs to provide training to tribal, 
state, and local officers on certain aspects of federal criminal law. 
The SLEC program provides qualified officers with limited liability 
protections and expands arrest authority to include federal crimes 
committed by Indians and non-Indians. In June, our office joined with 
the Colorado US Attorney's Office and the BIA to train approximately 40 
officers interested in obtaining SLECs.
    On August 13th, our office will join members of the South Dakota 
Attorney General's Office and tribal prosecutors for training designed 
to improve courtroom advocacy. The meeting will also provide a valuable 
opportunity to renew personal relationships and enhance cooperative law 
enforcement efforts.
    Finally, the Safe Trails Drug Task Forces in both North Dakota and 
South Dakota have a track record of proven success and represent inter-
agency cooperation at its best. The South Dakota Task Force is a past 
recipient of the National Indian Country Law Enforcement Achievement 
award for its exceptional efforts in Indian Country. Earlier this year, 
a Task Force investigation concerning a large-scale drug conspiracy 
operating in and around the Standing Rock Reservation led to federal 
convictions for all 32 defendants indicted. Our office has supported 
the expansion of the Safe Trails Task Force by assigning it a fulltime 
AUSA and a special assistant US attorney (SAUSA). The Safe Trails Drug 
Task Force operating in North Dakota has had similar success and 
aggressively pursues drug cases on Indian reservations without regard 
to drug quantities.
    I want to thank the Committee for the opportunity to discuss these 
issues today. We appreciate the opportunity to work with the Committee 
to improve the safety and security of all those who live in and around 
Indian Country.

    The Chairman. Mr. Jackley, thank you very much for being 
with us.
    Finally, we will hear from the Honorable William Zuger, who 
is the Chief Judge of the Standing Rock Sioux Tribal Court.

  STATEMENT OF HON. WILLIAM ZUGER, CHIEF JUDGE, STANDING ROCK 
                       SIOUX TRIBAL COURT

    Mr. Zuger. Chairman Dorgan, Senator Thune, before I turn to 
my prepared remarks, I have some additional thoughts on things 
that have been raised by my three esteemed colleagues here.
    With regard to what Director Ragsdale has said about the 
drug courts, I would heartily second that. He is right on spot. 
I have had extensive conversations with both State and tribal 
law enforcement, judicial authorities with regard to drug 
courts. I have spent considerable time in Bismarck with Judge 
Haggerty, the presiding judge up there, and with the head of 
the drug court up there. I have talked at length with the 
director of the drug court program of the Turtle Mountain Band 
of Chippewa. I have had conversations with their tribal 
authorities as well.
    It is a personnel-intensive matter. If those people could 
quit using their drug of choice without help, they would have 
done so, because the consequences are obviously counter-
productive in their lives. So there needs to be a traditional 
court staff in an experienced court staff to deal with these 
people.
    With regard to Mr. Jackley's comments on declinations, I do 
know from files in which I have issued continuances, and in 
fact dismissals. Mr. Swallow has had problems in getting the 
return of evidence from Federal authorities, particularly rape 
kits. I can't give too much of the specifics, because as a 
judge, my business is to deal with the matters that come before 
me. I really am not the best person to comment on the status of 
prosecutions which have not yet appeared in my court.
    And with regard to what Chairman His Horse is Thunder has 
said about the anecdotal evidence, I have been in the law 
business for 37 years. And I have come to believe that those 
anecdotal things which are reliable give often a richer and 
deeper picture of reality than do statistics. In the words of 
Disraeli, there are three kinds of lies, there are lies, damned 
lies and statistics.
    So in my experience as the head of the judicial branch of 
this government, I have many people come in to talk to me, and 
particularly elders. They report to me as they have reported to 
Chairman His Horse is Thunder, things are a whole lot better 
out there.
    With that, I would turn to my prepared remarks. The 
Committee has asked that we address specifically the Operation 
Peacekeeper. I have also some thoughts with regard to the long-
term, which again I address at page three of my comments. I 
wish to thank Chairman Dorgan for the Committee's invitation to 
me to present testimony to the Committee regarding the progress 
of Operation Dakota Peacekeeper. It is a distinct honor, 
especially as a non-Indian, to be entrusted by the Chairman, 
Council and the members of the Standing Rock Sioux Tribe to 
hold the position of their chief judge, a constitutional 
elected office of the tribe, and have this opportunity to 
address the vital interests of law and order on this 
reservation.
    I also wish to express my thanks to John Harte for allowing 
me to submit the required prior written submission through my 
Associate Chief Judge, Curtis Carroll, who was kind enough to 
take time last Thursday to summarize his and my mutual 
assessment of the impact of the Peacekeeper initiative. I was, 
unfortunately, in Baltimore last week, where I was attending 
the 2008 National Symposium on Sex Offender Management and 
Accountability, with the Department of Justice presenting the 
Standing Rock Sioux Tribal Council.
    I believe that we are entering upon an exciting and 
gratifying time which will see the restoration of substantial 
self-determination, self-sufficiency and the inherent 
sovereignty of the Indian tribes and nations of America. We are 
not there yet, and there is much that needs to be done. I sense 
a fundamental concern and a commitment to do something, not 
only by this Committee, but by the many fine people of the 
Bureau of Indian Affairs, with whom I have had the privilege of 
sharing counsel over the last year or so.
    The problems of health, safety and welfare of the people of 
Standing Rock are substantial and are both acute and chronic in 
their need for attention and solution. We are here today to 
discuss the acute needs currently being addressed by Operation 
Dakota Peacekeeper. These have been very ably and succinctly 
address by Judge Carroll in my absence.
    As the hopefully first phase comes to a point of 
transition, I submit these considerations for your attention. 
First, there needs to be a continuity of law enforcement 
presence on the reservation. As Judge Carroll notes, this 
necessitates an ongoing presence by a contingent of officers 
who will stay long enough to understand the reservation and be 
available to follow through with the prosecution of criminal 
offenders.
    Second, we need the prosecutorial and adjudicatory staff, 
and for that matter, detention capacity, to assure that the 
deterrence to crime is a reality, not merely a transitory 
inconvenience to those would take advantage of the reservation. 
To this end, there simply is insufficient legal staff to 
properly prepare to see these cases through to trial, either in 
the office of the chief prosecutor or the public defender.
    Overlooked in this entire process is the Children's Court, 
which does not currently provide legal counsel for those minors 
charged with delinquency, each act of which carries a jeopardy 
of six months of imprisonment, and in which defendants are 
entitled to protection of the law equal to that of adult 
offenders under the Indian Civil Rights Act and the Standing 
Rock Sioux Tribe Constitution and Code of Justice, under which 
adult are provided with legal counsel at the tribe's expense 
through the office of public defender.
    Unfortunately, the case log in adult criminal court 
presently precludes the public defender from addressing all but 
the most pressing matters in the Children's Court.
    Third, the courts lack the physical staff and 
infrastructure to adequately meet the influx of cases. Part of 
this is internal, consisting of problems which we are 
addressing within the court and with the council and the 
Judicial Committee. However, part of it is due to not ramping 
up the court's resources to prepare for the additional police.
    As Judge Carroll noted in his summary last week, the 
Peacekeeper initiative will be for naught if a permanent, 
sufficient law enforcement presence is not provided for 
Standing Rock. Indeed, as he notes, some of those who have 
cooperated with and depended on that effort will be placed in 
the worst position as a result.
    As an elected officer of the tribe, I receive substantial 
feedback from my constituents. They expressed much fear and 
frustration before the initiative. They have expressed much 
gratitude since the initiative. Life on the reservation is 
becoming--finally--safe.
    On July 15th, Elmer Four Dance, Special Agent in Charge of 
BIA District 1 law enforcement, told Sioux Falls television 
station KELO that a law enforcement presence of 48 sworn 
officers would be optimal for the Standing Rock Reservation. 
The Peacekeeper initiative has not reached this level. However, 
the results have been substantial. This is a measure of just 
how bad the situation has been and just how far we have to go.
    And Chairman Dorgan, if I might just briefly dip into 
something that I mentioned in the written but not oral portion 
of my testimony, I have been born and raised in Bismarck, 
where, when we pick up the phone, we can expect police or fire 
to show up within two or three minutes. We don't even have a 
fire department here. With regard to the police department, the 
Amnesty International report revealed, to the shock of the 
outside world, how often even violent sexual assaults against 
Indian women occur, and they go as long as two days without a 
response, in some cases, no response ever.
    The Indian people of this Country are citizens of the 
United States of America and they are entitled to the basic 
health, safety and welfare that this Country provides for all 
of its citizens. And of those rights, the most fundamental is 
the right to live in safety.
    I thank Chairman Dorgan for inviting me to testify.
    [The prepared statement of Judge Zuger follows:]

 Prepared Statement of Hon. William Zuger, Chief Judge, Standing Rock 
                           Sioux Tribal Court
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Judge Zuger, thank you very much. I 
appreciate the testimony of all four of you.
    I want to mention that Marty Boeckel, who is the State 
Director for Senator Conrad, is with us today. Senator Conrad 
is a member of our Indian Affairs Committee. Tanya Peterson, 
Staff Assistant for Senator Tim Johnson, is here. Tanya is back 
there. Senator Johnson is also a member of our Indian Affairs 
Committee. And Virginia Newquist, with the Honorable Stephanie 
Herseth Sandlin is here. Thank you very much for being with us 
today.
    Mr. David Gipp, where are you?
    Mr. Gipp. Right here, Senator.
    The Chairman. I am going to ask some questions, then ask 
Senator Thune to ask questions. I want to have time to have you 
make a comment about your law enforcement experience.
    Let me begin. It is hard to know where to begin. Mr. 
Ragsdale, the BIA has the responsibility for law enforcement 
here on the reservation, is that correct?
    Mr. Ragsdale. Absolutely.
    The Chairman. And prior to this surge, you had nine 
officers on the reservation. Clearly that is insufficient, is 
that correct?
    Mr. Ragsdale. That is correct.
    The Chairman. So we now have 29? We have 20 additional 
officers that have been brought in on a rotating basis?
    Mr. Ragsdale. We have 15 positions here right now on 
Standing Rock now, which is up from the numbers we previously 
cited. I think we have one or two vacancies. We have one 
officer that is on his way to the police academy.
    The Chairman. Let's stipulate that this has been a 
successful program, the surge. One might make the case, I 
suppose that if resources were available, there shouldn't have 
had to have been a surge. We should have had more than nine 
officers here on this reservation in the first place.
    Two people per 24 hour shift, Mr. Chairman, you said, for 
an area the size of Connecticut. Clearly, that doesn't work. So 
we have now what is called a surge. The surge at some point 
will conclude, because you can't keep bringing people in from 
around the Country, I assume, on a temporary basis. I would 
presume, you didn't describe it, but the testimony submitted by 
his assistant, you get people who come in for a period of time 
and then they are gone. There are no arrest reports, or they 
are not here when they want to prosecute.
    The surge is good. I think all of us appreciate the work 
that you have done to make this happen. What happens next?
    Mr. Ragsdale. We will sustain, we intend to sustain this 
operation through September. So those folks that have been 
waiting for us to leave, they need to wait longer, because we 
are going to sustain this until the end of the fiscal year. At 
the beginning of the fiscal year, I will likely make some 
determinations of what else we can do. We will have 15 officers 
here, if our funding levels stay constant, plus 2 additional 
officers that we intend to hire as school police resource 
officers.
    The Chairman. Is that sufficient for the law enforcement 
needs on this reservation?
    Mr. Ragsdale. No, sir, it is not sufficient.
    The Chairman. Whose responsibility is it to provide 
sufficient resources?
    Mr. Ragsdale. It is the Federal Government's 
responsibility.
    The Chairman. BIA?
    Mr. Ragsdale. The BIA is the agency that has primary 
responsibility, but the BIA is not totally responsible for all 
law enforcement resources.
    The Chairman. I understand, but principally the BIA?
    Mr. Ragsdale. Yes, sir.
    The Chairman. So you don't have the resources at this point 
to make this assignment at this reservation and other 
responsibilities you have? You don't have the resources to do 
that?
    Mr. Ragsdale. No, sir. What we do is try to balance the 
resources that we have so they meet the requirements throughout 
Indian Country.
    The Chairman. Have you requested sufficient resources so 
that you would be able to put the number of people you need 
here for law enforcement purposes?
    Mr. Ragsdale. We have provided the information that shows 
the policy makers of this Country, the Congress and the 
President, the gaps that we need to fill in both detention and 
law enforcement, and we have some analysis on the needs for 
tribal law enforcement.
    The Chairman. Are you able to provide for the Committee the 
recommendations that you have cited? I assume they go up 
through OMB, correct?
    Mr. Ragsdale. I think that we have. We can provide it to 
you, the financial requests are in the annual President's 
submission of the budget.
    The Chairman. So at this point, you are saying that through 
the end of September, this surge continues. Following that, at 
a minimum, you have 17 resources, or you will have 17 people 
assigned to this reservation, is that correct?
    Mr. Ragsdale. That is correct. Now, it will depend again on 
how Congress acts on the upcoming budget whether or not we have 
a continuing resolution and what the base levels that will be 
provided and so forth.
    The Chairman. First of all, the drug courts are very 
important. To the extent there are resources for the drug 
courts, I can't think of a more important thing to do than to 
provide those resources and I appreciate that comment. Mr. 
Chairman, I know you have, in addition, serious detention 
problems, don't you?
    Mr. His Horse Is Thunder. Absolutely, Mr. Chairman. We 
currently now, for youth detention anyway, prior to the surge, 
we weren't lodging the youth, we were turning them loose. We 
would arrest them, bring them in, couldn't keep them, had to 
turn them loose. So detention facilities is a problem and is 
not only exasperated, by the surge. We have to have 
arraignments on a seven-day basis. Even then, I believe that 
some of those people who are detained have to be shipped off 
the reservation because the jail is just too full.
    The Chairman. Mr. Jackley, you say you have a liaison for 
this reservation?
    Mr. Jackley. That is correct.
    The Chairman. And you have a lawyer coming to this 
reservation once a month?
    Mr. Jackley. Correct, or a victim witness coordinator from 
our office.
    The Chairman. Is that a national standard of some type, or 
is that your standard?
    Mr. Jackley. All I can comment is that it is our standard. 
I require the lawyers to do that once a month and they have to 
report to the U.S. Attorney. So we keep track of that to make 
sure it happens. There are times when lawyers are in trial and 
we may miss an MDT meeting, but for the most part, that is done 
monthly. Because it has been a way we have been able to track 
sex abuse cases, particularly with children.
    The Chairman. Does anyone know if there are similar 
circumstances with the North Dakota U.S. Attorney's office, a 
liaison and a once a month visit?
    Mr. Jackley. I can tell you that each one of the four North 
Dakota reservations, in my discussions with Mr. Wrigley, have a 
tribal liaison.
    The Chairman. Mr. Chairman, are you aware of any?
    Mr. His Horse Is Thunder. I am not aware that they come on 
a monthly basis. Mr. Emory is probably much more aware of that 
than I am.
    Mr. Emory. Senators, respectfully, I have been working for 
the tribe here for more than two and a half years. And we have 
never had a North Dakota Assistant U.S. Attorney come and meet 
with us.
    The Chairman. Mr. Jackley, on this issue of declinations, 
let me read you something from a U.S. Attorney. ``I know that 
the performance of my office will be compared to other U.S. 
Attorneys. My gun cases have to compete, my white collar crime 
cases have to compete. One criterion that is never on that list 
is Indian Country cases.'' Does that sound familiar to you?
    Mr. Jackley. All I can say is I have, as United States 
Attorney, I have never been dissuaded from prosecuting in 
Indian Country. To the contrary. The director of EO USA has 
come to my district, to Pine Ridge, traveled there with me. We 
have never been penalized. In fact, when I made a request on 
behalf of our district because of the available funding for an 
additional Adam Walsh attorney, Adam Walsh of course deals with 
child pornography, but it also deals with Indian Country when 
it involves crimes involving young children, we received that 
additional position.
    So all I can tell you, at least from my perspective, we 
have never been penalized for the work we do in Indian Country. 
In fact, we touted our numbers, 55 to 65 percent of our 
prosecutions occurred in Indian Country when we made 
application to receive that position. There were 43 positions 
and we did receive that position.
    The Chairman. From what I know of your office, I think you 
are to be commended. If you are sending somebody here once a 
month, you have a liaison, and you are doing all those things, 
I think that is very important and I commend you for that. I do 
think that this is a disjointed system, as you know. We have 
multiple jurisdictions and we have had testimony before this 
Committee that at least in some areas of the Country, crime on 
Indian Country is the backwater in the U.S. Attorneys' offices 
and not high profile and not aggressively pursued.
    I don't know what all the facts are here, but we have put 
together a law enforcement bill that Senator Thune is a part 
of, Senator Johnson, Senator Conrad. We have advanced a bill, 
and Mr. Ragsdale, you are most familiar with it. We need to 
find a way to fit this system together so that the prosecution 
of a rape, a murder, or violent crime, doesn't depend on where 
you live. It shouldn't matter whether you are in Bismarck or in 
Fort Yates. If that crime is committed and you are the victim, 
you ought to be able to expect that the perpetrator is going to 
be brought to justice. Unfortunately, I think there is a 
circumstance in this Country where many reservations are 
remote, they are in some cases hundreds of miles from the 
nearest U.S. Attorney.
    And I do think we have a big difference in whether 
perpetrators of violent crimes are as aggressively pursued and 
prosecuted, just because the system doesn't work very well 
right now. It sounds to me like your U.S. Attorney's office 
pays a lot of attention to this, Mr. Jackley. I appreciate 
that. I think that is part of what our law enforcement 
initiative is about--to try to make sure that that happens all 
across the Country. We have been reading, as you know, things 
in the newspaper about the U.S. Justice Department that are not 
very pleasant to read, especially in the last month or two, of 
what has happened. And a portion of it, as I indicated, comes 
from former U.S. Attorneys directly testify to this Committee 
about the lack of interest in prosecuting crimes on Indian 
Reservations.
    So obviously that all needs to be fixed. It appears to me 
in your area it doesn't need to be fixed, because you are doing 
a good job.
    Mr. Zuger, with the surge, my understanding also is that 
there are some difficulties in coordinating prosecutions with 
people coming in and out. I would understand that always to be 
the case, because you are assigning people on a temporary 
basis, Mr. Ragsdale. Describe that to me, Mr. Zuger.
    Mr. Zuger. Well, Mr. Chairman, quite frankly, the 
deterrence of a judicial system depends on the end result. And 
the fact is that we do not have a sufficient personnel really 
to prosecute these through. So a great many insufficient plea 
bargains end up having to be made, because there simply aren't 
the people.
    I was looking at the calendar here for the next couple of 
weeks. I was asked by my some if I could come up to him and 
meet him at law school and attend the orientation. I took a 
look at the schedule. We have bench trials set at 15 and 20 
minute intervals next week. Obviously these aren't going to be 
tried, and the only way that this can be done is to settle them 
up.
    The biggest shortage, I mean, I am getting tired, 
personally, of working weekends. I will be 62 next month, I am 
getting pooped. But the biggest problem we have that Mike 
Swallow and Jim Seary don't have the manpower. I can handle a 
plea agreement pretty quick. But in order for that plea 
agreement to reflect reality, these gentlemen have to have the 
time to go through the file. And there is no shortcut for the 
lawyers.
    We need an additional full-time attorney in the 
prosecutor's office and an additional full-time attorney in the 
public defender's office. We need it very badly. And my clerk 
staff is going to wear out as well. I have some really good 
people working for me. I will put them up against any State 
district clerk system in the State of North Dakota. But there 
are only so many hours in the day.
    The Chairman. Mr. Ragsdale, I am going to ask Senator Thune 
to ask some questions in a moment, but you indicate that 
organized drug traffickers had moved off the reservation. Was 
the organized drug trafficking on the reservation a very 
significant problem when the surge began?
    Mr. Ragsdale. It is my understanding it was.
    The Chairman. And what evidence exists that the organized 
drug trafficking has now moved off the reservation?
    Mr. Ragsdale. The only evidence, I am taking the word of 
the intelligence, the police officers that do that work and the 
outside Federal police officers.
    The Chairman. Senator Thune?
    Senator Thune. Thank you, Mr. Chairman. And I want to thank 
you all for your insight and for your contributions. This has 
been, I think, at least by the numbers that you shared this 
morning, Mr. Ragsdale, a fairly effective strategy.
    But I have a question for you that, based upon your 
experience with Dakota Peacekeeper, do you believe, and I don't 
know if you are familiar with what the call the broken windows 
theory, but it has been used fairly successfully in the inner 
city areas, it is community policing and has been very 
effective in some areas of the Country where they have gotten 
some of these crime issues under control. Based on your 
experience with Operation Dakota Peacekeeper, do you think that 
that theory could be made effective on reservations?
    Mr. Ragsdale. Yes, I do. It works. But you have to have 
high quality police officers that are willing to work with the 
community constantly as well as investigate crimes. So it does 
work. It requires a certain amount of police officers, so you 
can tend to the broken windows. If all you're doing is 
responding to violent incidents all the time then you're not 
able to do the community policing. You do not make the contacts 
and the police just get completely worn out to the standpoint 
that in some instances they are seen as mercenaries and not the 
protectors of the community they serve. It absolutely works, 
though. I used it in my own community and it works here.
    Senator Thune. Do you think that in terms of, is the issue 
going to be the training component when it comes to law 
enforcement personnel? Is it a function of just having enough, 
and that being a funding issue, to where law enforcement 
officers can devote more time to some of the smaller type 
crimes so they are not just responding to violent crimes, and 
it can become this kind of influence in a community? So is it a 
funding issue? Is it a training issue? What can we do that 
would make this more effective?
    Mr. Ragsdale. Well, yes, the officers needs to be trained 
and I have full confidence in the training that most police 
officers get at State academies and our Federal academies. But 
they have to be the right kind, the right quality of officers. 
And I think in this regard our officers' quality and dedication 
in that regard is changing and getting better all the time.
    Senator Thune. I want to compliment Chairman His Horse is 
Thunder, too, for what I think has been his tremendous 
leadership role on law enforcement issues up here and making 
this whole thing work. What I would like to ask you, Mr. 
Ragsdale, too, is how important that buy-in is from the tribal 
leadership and communities in order to make an operation like 
this a success?
    Mr. Ragsdale. If the political leadership does not support 
law enforcement and the administration and the courts and 
corrections and the administration of justice, you have a 
flawed system. No doubt about it. The political system has to 
have integrity and it has to work to allow the public safety 
providers to do their job.
    Senator Thune. What is the estimated cost of this 
operation?
    Mr. Ragsdale. I originally estimated that it would cost 
approximately a million dollars for the period that we were 
here. I checked our financial accounting system and we have 
accrued costs up to about $300,000 as I recall. With the 
details of the tribal police officers who come from independent 
police departments, we have not been invoiced for those 
services yet. It may be a million or under a million dollars.
    Senator Thune. And if you were going to implement this on a 
permanent basis, what would it cost annualy, do you think? If 
we were going to increase the number of law enforcement people 
here on a level consistent with what we are seeing in terms of 
Operation Dakota Peacekeeper, do you have any kind of estimate 
of what it would take?
    Mr. Ragsdale. An estimate that you won't hold me to, but 
currently we have about $1.2 million allocated for just the law 
enforcement function here at Standing Rock.
    Senator Thune. But that is current money?
    Mr. Ragsdale. That is current. We would have to triple, and 
if you take into account that we brought in permanent officers, 
equipment, your start-up costs would also have to be 
[indiscernible]. We would probably be talking about doubling or 
tripling the budget, the law enforcement budget. Just the law 
enforcement budget [indiscernible].
    Senator Thune. Just for Standing Rock?
    Mr. Ragsdale. Just for Standing Rock.
    Senator Thune. And what would you say is the biggest 
obstacle for this strategy being used on the reservations? Is 
it a resource issue?
    Mr. Ragsdale. It is a resource issue, not enough funding. 
The same tactic, we might be able to limp by in a limited way, 
what we are doing here is improvising because of lack of 
personnel and funding to support the levels that we would like 
to have for our Indian reservations throughout [indiscernible].
    Senator Thune. Mr. Jackley, what types of crimes have you 
been prosecuting since the surge began? Do you see any change 
from what you were doing previously?
    Mr. Jackley. There hasn't been a significant change. What 
we see, particularly on Standing Rock, what we have seen are 
the aggravated sexual abuse type cases and the violent 
assaults. That seems to be, unfortunately, part of the 
standard. The testimony that you have heard regarding the drug 
dealers either slowing down or moving off is consistent with 
what we are finding so far. We had previous to the surge filed 
45 joint State-Federal indictments on the drug dealers in the 
area. But at least at this time, we have not been referred a 
significant number of drug cases as a result of the surge.
    Senator Thune. How does that affect your resources in the 
U.S. Attorney's office? Has there been a strain on it because 
of this operation?
    Mr. Jackley. There hasn't yet at this time. The reason I 
say that is as the cases begin to work themselves through the 
system, it will take a while before determinations are made as 
to which cases will go to Federal prosecution versus State 
prosecution. I like to say that the average Assistant United 
States Attorney, depending on the type of case, we should 
handle between 25 and 40 cases. So if you keep that in mind and 
you look at that with respect to the surge, if it only would 
bring five additional cases, which I think it is going to bring 
more than that, but assuming that number holds true and there 
are no additional cases, we can handle that type of a strain.
    But in the event that the surge is to continue and bring in 
more cases, you have to keep in mind that my guys are already 
pushing the limits. And like I said, the average case load of a 
criminal AUSA, depending on the type of case, we are talking, 
violent crimes, about 25 to 40 cases.
    Senator Thune. Several references have been made to cross-
utilization. Why is that not usable to sort of stretch or 
leverage the resources that are available in different levels 
of law enforcement?
    Mr. Jackley. When I refer to cross-deputization, there are 
really three types of cross-deputization that can be applicable 
in this district. One type of cross-deputization is what we see 
in the Safe Trails drug task force, where certain officers, 
whether they be DCI agents or highway patrol, receive a Federal 
deputization associated with that task force. It is very 
limited to drug investigations. So it only applies to drugs.
    The second type of cross-deputization would be like in 
reference to the surge where the county commission and the 
tribe and the BIA would come to some terms of an agreement 
whereby certain officers receive some cross-deputization and 
when it is placed on their officers, mainly when we are dealing 
with Indians and non-Indians.
    The third type of cross-deputization would be the BIA's 
special law enforcement commission or the long-term cross-
deputization. Three things have to essentially occur for the 
BIA special law enforcement commission. Number one, there needs 
to be a tribal resolution. Number two, there needs to be a 
memorandum of understanding between the agencies involved. And 
number three, the officers have to pass the course.
    When you reference Standing Rock, what has occurred is, I 
have seen the tribal resolution, so there has been a tribal 
resolution passed. In June we gave the course where some 
officers were involved in that. But it has not been activated 
because there isn't a memorandum of understanding in place.
    When you look at South Dakota, Rosebud has in effect BIA 
special law enforcement commissions of approximately 20 
officers. Pine Ridge, Standing Rock and Sisseton have all 
passed authorizing resolutions. Many of their officers have 
passed the course, but it is at the stage of the memorandum of 
understanding.
    Senator Thune. Is that something, though, that would 
enhance the ability to, for law enforcement at more effective 
and lower cost?
    Mr. Jackley. It acts as a force multiplier when you deal 
with Indians and non-Indians. So the answer to your question is 
yes, Senator.
    Senator Thune. And it sounds like most tribes in South 
Dakota have adopted that sort of a resolution.
    Mr. Jackley. They have adopted the resolution with respect 
to tribal officers. I should maybe backtrack a second. When you 
talk about BIA special law enforcement commissions, it can deal 
with tribal officers and it can deal with local law 
enforcement, such as sheriffs and PDs, and it can deal with 
State law enforcement, such as DCI and highway patrol. The 
tribes such as Standing Rock have adopted resolutions with 
respect to tribal officers. So what that does is, for instance, 
the Standing Rock game warden, they are to have BIA special law 
enforcement cards, they can then make a Federal arrest of a 
non-Indian. Instead of before, they would simply have to hold 
the non-Indian until non-Indian law enforcement would come, and 
they wouldn't be authorized to make an arrest. So it is not a 
good utilization of resources, so to speak.
    Mr. His Horse Is Thunder. Senator, that is what I was going 
to reference, that Standing Rock's resolution, tribal 
resolution is the only authorization for our game and fish 
officers to become cross-deputized. It does not authorize the 
cross-deputization for, say, non-Indian, non-State officers to 
make arrests on the reservation. Just for the Chairman's 
information, when yourself, Senator Thune, and Mr. Ragsdale and 
I were on the streets last month in McLaughlin and we stopped 
and we visited with city commissioners at the time, and I 
referenced the idea that Standing Rock was reluctant, our 
people were reluctant to sign cross-deputization with the 
county, Corson County, because of the attitude of the sheriff 
himself. The city commissioners, being non-Indians themselves, 
also were, they basically said, we agree with you that our 
sheriff, we as non-Indians have a problem with our own county 
sheriff, and so they understood the tribes' reluctance to enter 
into cross-deputization with the county sheriff's department.
    Senator Thune. Mr. Chairman, this is a question for you. 
Has the feedback from tribal members and people that you 
represent and serve been positive about all this? What has been 
the overall kind of reaction?
    Mr. His Horse Is Thunder. Ninety-nine point nine percent of 
reactions to the surge have been positive. We have had a 
handful of people who said that they thought they were being 
harassed or didn't like it. But overwhelmingly, the response 
has been positive.
    Senator Thune. Has communication been good between BIA, the 
tribe, DOJ and all levels of law enforcement involved?
    Mr. His Horse Is Thunder. The tribe has set aside, created 
a special position to handle the traffic communications between 
the BIA, between the courts, between the tribal detective 
services. So we have assured that communication has been good.
    Senator Thune. What was it that triggered you to go to 
Artman in the first place? Was it an event or incident that you 
said, we need some more people out here, you have to do 
something?
    Mr. His Horse Is Thunder. I have consistently, over the 
last couple of years, at both the tribal budget advisory 
committee meetings as well as hearings, said that the law 
enforcement was sorely lacking on the reservation. But the 
incident that really triggered a more concerted effort was the 
death of one of our tribal members in the city of McLaughlin 
two months ago. It was the straw that broke the camel's back 
for me and I knew that something had to be done. So I made a 
series of phone calls that ended up with me calling Mr. Artman 
and he returned my phone call.
    I think also that what led to the surge was not only that 
phone call or series of phone calls, but at the time, the day 
after the death, Senator Johnson's staff was in the city of 
McLaughlin, Ellie Wicks was there. So she heard first-hand of 
that death and brought it to the Senator's attention. I know 
that both the South Dakota and North Dakota delegation became 
involved in a very consistent way with the writing of a letter 
to the Department saying, you need to do something about this.
    Senator Thune. I know we heard a lot too, just in the 
visits up here, not only tribal members, non-tribal members. 
And I know that even back a year ago, this is something that 
was on your radar screen.
    Mr. Chairman, thank you and I will hand it back to you.
    The Chairman. Senator Thune, thank you very much.
    I did not mention Rod Froelich, State Legislative Director 
of the district is here. Rod, will you stand up? I wanted to 
mention that you were with us. Thank you very much for being 
here.
    We also have David Gipp here, who is the President of the 
United Tribes Technical College. After our program had been 
printed, he had called. They have some work going on that is 
very, very important at United Tribes. I am going to call on 
David to say a few words.
    David, do you mind just standing? Your formal statement 
will be made part of our permanent record. Do you mind standing 
and summarizing in just a couple of minutes what you are here 
for?

STATEMENT OF DAVID M. GIPP, PRESIDENT, UNITED TRIBES TECHNICAL 
                            COLLEGE

    Mr. Gipp. I would, Senator. Thank you very much, Mr. 
Chairman. I want to thank also Senator Thune for the 
opportunity to speak here today.
    I will just take a few minutes. I do think that what I have 
to say is pertinent to the subject, and I want to thank and 
commend Chairman His Horse is Thunder and certainly the tribal 
councils and all the officials here that are working on the 
issues of law enforcement and the importance of maintaining law 
and order and bringing peace to our communities.
    I know that is an issue, however, that bespeaks all of the 
northern tier of tribes, when I speak about that, and I refer 
to North Dakota, South Dakota, Nebraska, Montana, certainly 
Minnesota and Wyoming when I mention northern tier.
    So what I speak about today, and I will try to do this in 
the next minute and a half, is to speak about a longer-range 
solution for providing law enforcement officers for tribal 
nations within the northern tier of Indian Country. We have had 
some recent success after nearly seven years of negotiation 
between the United Tribes Technical College, as you know, 
located in Bismarck, North Dakota, and the American Indian 
Higher Education Consortium, our association of tribal 
colleges, 37 in all, about the issue of law and order and 
training with the Bureau of Indian Affairs. We have been 
negotiating an MOU, or memorandum of understanding, for nearly 
seven years. It has been put on hold for various reasons on the 
other side of the government.
    One of the things that did occur just before Mr. Artman's 
departure in the third week of May when he left was to sign 
that MOU. That MOU proposes a great deal of cooperation when we 
talk about the long-term solution of providing adequate and 
qualitative training for law enforcement officers that can 
serve our tribal communities. That really is the overall goal 
or objective of that MOU. And that was signed by Mr. Artman. We 
appreciate it. We have had some beginning discussions with the 
director of law enforcement about that issue.
    And there are three major objectives or three major goals 
that this MOU begins to speak about. One is to increase the 
number of trained and certified law enforcement officers 
throughout Indian Country. Second, to increase the 
opportunities available for law enforcement in Indian Country. 
And third, to build and sustain the capacity of tribal colleges 
and universities to provide that law enforcement training that 
will meet the standards of the Bureau of Indian Affairs and the 
Department of Justice.
    We mean no harm to take away, if you will, the will and 
power of the academy, the Artesia location. That is not what we 
are about. But even if Artesia were operating at maximum 
capacity and producing as many law enforcement officers as they 
could, basic law enforcement officers, that would be roughly 
150, probably not more than 200. They don't meet the demand in 
terms of the vacancies and the turnover throughout Indian 
Country, throughout all of Indian Country. So we are not going 
to be taking away their power or their thunder, if you will. We 
will simply be adding.
    What I have been hearing for the past ten years that I have 
attended inter-tribal meetings in North and South Dakota, the 
complete, utter demise of law and order throughout this region 
of Indian Country. That is simply what I hear tribal leaders 
constantly telling me, at nearly every meeting I have attended 
throughout the Aberdeen area or the Great Plains area.
    So we hope that this MOU will begin to lay the first step 
for the programs that we offer in basic training. Our training 
program, offered for nearly 39 years at the United Tribes, is 
post-Board recognized by the State of North Dakota, by the 
Attorney General, for example. And we know that we provide the 
quality, we have offered our curriculum, we are increasing and 
redeveloping our curriculum so that it matches clearly up to 
what Artesia provides.
    So that gets us to the objective of providing Artesia and 
having Artesia serve as a template, not only for us but for 
other tribal colleges who choose to offer law enforcement 
training, or for that matter, any tribe that may choose to do 
so. Or for that matter, even State academies. Using Artesia's 
program as a template, then the Bureau could help build 
capacity to provide law enforcement training at places like 
tribal colleges, most certainly United Tribes.
    The Bureau of Indian Affairs may place one or more of their 
staff at our institution, and we are preparing to do so, adding 
to our faculty and then bringing their standards to our base of 
operations for training. And jointly work to coordinate the 
development of curriculum and training standards for law 
enforcement training. Jointly working to encourage youth to 
consider careers in law enforcement, something sorely lacking 
throughout Indian Country, throughout the Nation. And jointly 
developing partnerships between Federal, State and tribal law 
enforcement agencies to accomplish these objectives and last, 
jointly sharing information between agencies about these 
objectives.
    So I would just comment about an MOU, and I want to thank 
you, Mr. Chairman, Senator Thune and other members of Congress, 
for urging the Bureau of Indian Affairs to sign this MOU after 
nearly seven years of basically having it set aside. It is the 
beginning, it is not the end, and it is hardly the beginning 
for what really needs to happen for the safety and security of 
all of our tribal citizenry, not only on Standing Rock, but 
throughout the Nation, and most certainly throughout this 
region.
    I want to thank you, Mr. Chairman. I have attached 
certainly a copy of the MOU for your records, so that you may 
more closely inspect that at your will. I also will leave you 
with a United Tribes newsletter. Thank you.
    [The prepared statement of Mr. Gipp follows:]

Prepared Statement of David M. Gipp, President, United Tribes Technical 
                                College
    Chairman Dorgan and Vice-Chairman Murkowski:
    Thank you for the opportunity to present brief testimony today in 
support of a continuation of provision of adequate law enforcement 
resources for the Standing Rock Sioux Tribe. As a citizen of the Tribe, 
and as President of United Tribes Technical College in Bismarck, of 
which Standing Rock is one of the managing tribes, I first want to 
thank Senator Dorgan for assisting in initiating the effort to improve 
law enforcement on the Standing Rock Reservation through Operation 
Dakota Peacekeeper.
    My purpose in being here is to advocate for a longer range solution 
to the issues of providing law enforcement officers within the Tribal 
Nations in the Northern Tier of states in Indian country. Our Tribes 
need more than a new shift of 20 officers every 30 days as provided by 
Operation Dakota Peacekeeper. We truly need permanent resources to 
allow all the Tribal Nations in the Northern Tier of states to obtain a 
sufficient number qualified law enforcement officers to meet their 
needs, and we also need to be able to train those officers locally at 
Tribal colleges such as United Tribes Technical College in Bismarck and 
other nearby tribal colleges.
    We have had some recent success in reaching agreement with the 
Bureau of Indian Affairs about law enforcement training opportunities 
that provide an alternative to the Artesia, New Mexico facility. In 
May, 2008, after seven years of negotiation, and at the direction of 
the Congress, UTTC was able to enter into an Memorandum of 
Understanding (MOU), as attached, between itself, the American Indian 
Higher Education Consortium (AIHEC) and the Bureau of Indian Affairs 
(BIA), which sets forth a mechanism for cooperation regarding the 
possibility of training BIA and tribal law enforcement personnel at the 
Tribal colleges, and particularly at United Tribes. The MOU was 
executed by then Assistant Secretary of Indian Affairs, Carl Artman, 
and we appreciate his efforts.
    We are encouraged by this development, and have learned that the 
BIA may already be planning on acting on this MOU by placing a high 
level BIA official at UTTC in the coming weeks. Nevertheless, we do 
request your assistance, as Chair and Vice-Chair of the Committee on 
Indian Affairs to make sure the BIA follows through with the efforts 
outlined in the MOU. We believe local training is one critical 
component that will, with adequate resources, make Operation Dakota 
Peacekeeper a permanent success.
    The purpose of the MOU is to establish a partnership between AIHEC, 
the BIA and UTTC to provide specialized training for law enforcement 
officials who serve on Indian reservations.
    The MOU assists the BIA in fulfilling its mandate under Executive 
Order 13270 regarding Tribal colleges and universities and promotes 
cooperation among the parties.
    The Northern Tier is where some two-thirds of the Indian Law 
Enforcement Officers are located. The principal goals of the MOU are to 
address the needs of the Northern Tier of Indian Country:

  <bullet> Increase the number of trained and certified law enforcement 
        officers in Indian Country;

  <bullet> Increase the opportunities available for law enforcement 
        training in Indian Country; and

  <bullet> Build and sustain the capacity of Tribal colleges and 
        universities to provide law enforcement training that will meet 
        the standards of the BIA.

    All of the joint projects to accomplish the above goals 
contemplated by the MOU are not binding on the BIA. To get these 
projects going will require the support of the leadership of all of 
Great Plains tribes. Some of the specific activities contemplated by 
the MOU include:

  <bullet> Using Artesia's program as a the template, the BIA may 
        develop United Tribes's training facilities and already 
        accredited curriculum to help provide a pilot training program 
        for law enforcement officers that will meet or exceed BIA 
        standards for law enforcement training. Similarly, there can be 
        mutual recognition of accredited colleges such as United Tribes 
        and the BIA Training Academy.

  <bullet> Using Artesia's program as the template, the BIA may help 
        build capacity to provide law enforcement training at tribal 
        colleges.

  <bullet> The BIA may place one or more BIA law enforcement officials 
        at one or more college sites to act as trainers or provide the 
        mutual recognition of qualified instructors from the colleges.

  <bullet> Jointly work to coordinate the development of curriculum and 
        training standards for law enforcement training.

  <bullet> Jointly work to encourage youth to consider careers in law 
        enforcement.

  <bullet> Jointly develop partnerships between state, federal and 
        tribal law enforcement agencies necessary to accomplish the 
        objectives.

  <bullet> Jointly share information between agencies to accomplish the 
        objectives.

    The MOU is a good start, but the Tribal colleges also know that the 
support of tribal leadership in this effort is critical. Thank you for 
your consideration of this very important MOU. I look forward to 
working with you further on this issue in the coming weeks, and look 
forward to helping in any way possible to help make permanent the 
provision of officers under Operation Dakota Peacekeeper and to help 
make your recently introduced legislation, the Tribal Law and Order Act 
of 2008, (S. 3320) a reality.
Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mr. Gipp, thank you very much. We will 
include all that as a part of our permanent record.
    Let me ask you to keep in touch with our Committee about 
the MOU. I am very interested in it, and I assume Senator Thune 
and other colleagues on the Committee would be as well. So if 
you will keep in touch with us, I would appreciate that very 
much.
    Let me thank the Chairman for your hospitality and for your 
leadership. Mr. Ragsdale, thank you for being here. You have 
always been willing to come to hearings and speak and testify 
and answer questions. We appreciate that. The work you have 
done to construct the surge is good work. I think we should say 
thank you to all the officers out there, some of whom have 
traveled on weekends and back and forth in order to be here.
    I think it is the case that we need far more resources to 
do this. And this is one reservation, but frankly, we could be 
having this hearing on any number of reservations across the 
Country, some with higher crime rates, frankly. We just need to 
do a lot more, through the executive budget in Congress.
    Mr. Jackley, we thank you for your work. It appears to me 
that you are sending people here once a month as liaison, and 
so on, and it appears to me you are taking seriously your 
responsibility. It is a very important responsibility that U.S. 
Attorneys have, to prosecute violent crime.
    Mr. Zuger is limited with respect to the sentences he can 
administer as a Federal court judge. And Mr. Zuger, you say you 
are working very hard, well, don't you quit. I know your 
caseload is very substantial, especially now with this surge. 
We appreciate your work.
    Senator Thune, thank you for joining us today. We 
appreciate your work. Senator Thune is not on this Committee, 
but he had requested to sit in on a hearing in Washington on 
this subject, and I was happy to have him do that. And I 
welcome him today to our Committee. I appreciate his work.
    We also acknowledge the work of Senator Conrad and Senator 
Johnson, who are members of the Committee, and our other 
colleagues who play a vital role in trying to address these 
issues.
    One of the purposes of this is to shine a spotlight on what 
has happened here with respect to the surge, the tribal surge. 
It is just because at some point, something had to happen. 
Well, something good is happening. Let's make sure that it is 
not temporary. People's safety and security is critically 
important. That ought not be a function of where you live. When 
you live in this Country, you ought to feel like you are living 
in a circumstance where there is adequate law enforcement.
    Mr. Ragsdale, did you want to say one thing?
    Mr. Ragsdale. Yes. Mr. Chairman, I want to acknowledge, I 
noticed the mayor of McLaughlin came in when we started. I 
wanted to acknowledge his support. In particular, he has 
allowed us to put our command post on his property, with no 
charge, other than to pay for our utilities. I appreciate his 
support for our operation.
    The Chairman. Would you identify yourself for the record?
    Mr. Schott. I am Arnold Schott.
    The Chairman. Mr. Schott, thank you very much for your 
cooperation. We appreciate very much your being here.
    Mr. Schott. We have a few concerns, also we need more help 
and we need lots of prayer. We need to pick up the teenagers. 
Last night I went out at 2:30, like I told Mr. Ragsdale, I got 
up at 2:30 and there were three 11 and 12 year olds, they had 
no clue where they were, what they were doing, 2:30 in the 
morning. They were just completely out of it. And I asked them 
questions and they had no idea. They had no idea what was going 
on.
    We have to work on the drugs and we have to work on the 
parents. The parents have to be responsible for these little 
teenagers. We are not going to have any people left, no 
generation left if this continues. I am concerned. I want to 
get things changed. Thank you very much.
    The Chairman. Mr. Mayor, thank you very much. You raised 
the important question of parenting. Parenting and 
responsibility. It is at the root of all of this. I appreciate 
very much your cooperation and I appreciate your passion. Your 
passion is joined by those of us who serve in the Congress to 
try to make something good happen here.
    So let me thank all of you for being here. This hearing is 
adjourned.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
